       INSPECTOR GENERAL, DOD, OVERSIGHT OF THE
    ARMY AUDIT AGENCY AUDIT OF THE FYs 1997 AND 1996
    FINANCIAL STATEMENTS OF THE U.S. ARMY CORPS OF
            ENGINEERS, CIVIL WORKS PROGRAM



Report Number 98- 103                           April 7, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 6048937 (DSN 664-8937) or FAX (703) 6048932 or visit the Inspector
  General, DOD, homepage at: www.dodig.osd.mil.


  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 6048908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                     OAIG-AUD (ATT’N: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, VA 22202-2884


  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AAA                 Army Audit Agency
GAO                 General Accounting Office
IG                  Inspector General
                                  INSPECTOR     GENERAL
                                 DEPARTMENT   OF DEFENSE
                                   400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202




                                                                            April 7, 1998

MEMORANDUM FOR UNDER SECRETARYOF DEFENSE (COMPTROLLER)AND
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Inspector General, DoD, Oversight of the Army Audit Agency Audit
         of the FYs 1997 and 1996 Financial Statements of the U.S. Army
         Corps of Engineers, Civil Works Program (Report No. 98-103)

       We are providing this audit report for your information and use and for transmittal
to the Director, Office of Management and Budget. It includes our endorsement of the
Army Audit Agency (AAA) disclaimer of o@ion on the FYs 1997 and 19% Financial
Statements of the U.S. Army Corps of Engmeers, Civil Works Program, along wrth the
AAA report, ‘FY 97 Financial Statements Opinion Report: U.S. Arm Corps of
Engineers, Civil Works.” An audit of the fioancial statements of the Y .S. Army Corps of
Engineers, Civil Works Program, is required by the “Chief Financial Officers Act of
1990,” as amended by the “Federal Financial Management Act of 1994.” Smce this
report contains no findings or recommendations, written comments are not requued.
       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Richard B. Bird, Audit Program Director, at (703) 604-9145
(DSN 664-9145, e-mail rbird@dodig.osd.mil) or Mr. John J. Vietor, Audit Project
Manager, at (317) 510-3855 (DSN 699-3855, e-mail jvietor@dodig.osd.mil). See
Appendix D for the report distribution. The audit team members are listed inside the back
cover.




                                            David K. Steensma
                                   Deputy   Assistant Ins~tor Gcmxal
                                               for Auditmg
                          Office of the Inspector General, DOD
Report No. 98-103                                                        April 7,lPPB
   (Project No. 7FI-2032.01)

           Inspector General, DOD, Oversight of the Army Audit
       Agency Audit of the FYs 1997 and 1996 Financial Statements
       of the U.S. Army Corps of Engineers, Civil Works Program

                                 Executive Summary

Introduction. An audit of the financial statements of the U.S. Army Corps of
Engineers, Civil Works Program, is required by Public Law 101-576, the “Chief
Financial Officers Act of 1990,” November 15, 1990, as amended by Public
Law 103-56, the “Federal Financial Management Act of 1994,” October 13, 1994.
We delegated the audit of the FYs 1997 and 1996 Financial Statements of the U.S.
Army Corps of Engineers, Civil Works Program, to the Army Audit Agency. This
report provides our endorsement of the Army Audit Agency disclaimer of opinion on
the FYs 1997 and 1996 Financial Statements of the U.S. Army Corps of Engineers,
Civil Works Program, along with the Army Audit Agency report, “FY 97 Financial
Statements Opinion Report: U.S. Army Corps of Engineers, Civil Works.”

Audit Objective. Our objective was to determine the accuracy and completeness
of the Army Audit Agency audit of the FYs 1997 and 1996 Financial Statements of
the U.S. Army Corps of Engineers, Civil Works Program. See Appendix C for a
discussion of the audit process.

Audit Results. The Army Audit Agency report, “FY 97 Financial Statements
Opinion Report: U.S. Army Corps of Engineers, Civil Works, n February 1998,
stated that the Army Audit Agency was unable to express an opinion on the reliability
of the FYs 1997 and 1996 Financial Statements of the U.S. Army Corps of Engineers,
Civil Works Program. We concur with the Army Audit Agency disclaimer of
opinion; our endorsement of that disclaimer is at Appendix A. The Army Audit
Agency report is at Appendix B.
Table of Contents

Executive Summary                                                 i
     Appendix A. Inspector General, DOD, Endorsement Memorandum
                 (pages l-2)
     Appendix B. Army Audit Agency Report
                 “FY 97 Financial Statements Opinion Report:
                 U.S. Army Corps of Engineers, Civil Works”

     Appendix C. 2tilZSPlrZiS
     Appendix D. Report Distribution
Appendix A. Inspector General, Do7D,
            Endorsement Memorandum
                                  iNSPECTOR GENERAL
                                  DlEPARlMEM OF DEFENSE
                                   4OOARMYNAVYDRlVE
                                 AFtLwGlofu. VRaNw 22202




                                                                      February 27.1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)
                            AND CHIEF FlNANcIALoFFIcER
                         DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                           SERVICE
suBJEcT:     Endorsement of the Disclaimer of Opinion on the FY 1997 U.S Army
             Corps of Engineers, Civil Works Program, Financial Statements
             (Project No. n-2032)


        The Chief Financial Officers Act of 1990, as amended by the Federal Financial
Management Act of 1994, rquires financial statement audits by the Ins      tors General.
We delegated to the Army Audit Agent (AAA) the audit of the FYs 1Kc7 and 1996
financial statements of the U.S. Army J orps of Engineers, Civil Works Program.
Summarized below are the AAA opinion letter and the results of our review of the MA
audit. We endorse the disclaimer of opinion expressed by the MA (see the Enclosure).

        Disclaimer of Opinion. The MA disclaimer of opinion on the FYs 1997 and
1996 financial statements of the U.S. Army Corps of Engineers, Civil Works Program,
dated February 13, 1998, states that AAA was unable to express an opinion on the
financial statements. We concur with the AAA disclaimer of opinion for the reasons
summarized below.

        o The U.S. Amy Corps of Engineers, Civil Works Program, used a legacy
financial system possessing a number of fundamental weaknesses. The single-entry
system is not based on the U.S. Government Standard General Ledger, lacks revenue
and expense accounts. and does not provide an adequate audit trail.

          o Because the Corps had not implemented a fully integrated financial system,
no reasonable assurance existed that data reported in the financial statements were
reliable.

        The financial statements of the U.S. Army Co s of Engineers, Civil Works
Program, were audited by the General Accountin Of?rce in FYs 1991 and 1992 and by
the AAA in FY 1993 as part of the Army Gene J Fund financial statements. Opinions
were disclaimed each of those years. Beginning in FY 1994, DOD required separate
financial statements and a separate audit inion for the U.S. Amy Corps of
Engineers, Civil Works Program. The AX A $suai a disclaimer of opinion on the
FYs 1994 and 1996 U.S. Arm Corps of En            s, Civil Works Program, Statement
of C+tions     and Changes in R et Position. K=eAAAdidnotattcmpttorendcran
opimon on the FY 1995 financial statements of the U.S. Army Corps of Engineers,
Civil Works Program. Generally, the disclaimers were the result of inadequate
accounting systems.
                                                                                       2

         Iaternal Controls. Internal controls did not ensure that the FYs 1997 and 1996
financial statements of the U.S. Army Corps of En ineers, Civil Works Program, were
free of material misstatements. As a result, the ris ft of material misstatement is high.
Details on internal controls and compliance with laws and regulations will be discussed
in a separate report.
        Compliance With Iaws aud Regulrrtions. The MA also identified areas of
noncompliance with laws and regulations. Under the Federal Financial Management
Improvement Act of 1996 and OMB Bulletin No. 93-06, Addendum 1, ‘Audit
Requirements for Federal Financial Statemetlts,” January 16,1998, the MA work
disclosed that financial management systems did not comply with Federal financial
management system requirements;       licable Federal accounting standards; and the
United States Government StandardT eneral Ledger at the transaction level.

        .R.eview of Army Audit Agency Work. To fulfill our responsibilities for
cktummmg the accuracy and completeness of the independent work conducted by the
AAA, we reviewed the approach and planning, and monitored the progress at the key
points. We also performed other procedures deemed necessary to determine the
fairness and accuracy of the approach and conclusions.

         We conducted our review of the AAA work on the U.S. Army Corps of
Engineers, Civil Works Program, financial statements from September 2, 1997, to
February 27, 1998, in accordance with generally accepted Government auditing
standards. We found no indication that we could not rely on the AAA disclaimer of
opinion or its related evaluation on internal controls and compliance with laws and
regulations.



                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing


Enclosure
Appendix B. Army Audit Agency Report
FY 97 Financial Statements
            Opinion Report

     U.S. Army Corps of Engineers,
                       Civil Works




                    February 1998
         Audit Report: AA 98-112
                         DEPARTMENT OF THE ARMY
                              U.S. ARMY AUDIT AGENCY
                         OFFICE OF THE AUDITOR GENERAL
                              3101 PARK CENTER DRIVE
                            ALEXANDRIA,   VA 2230246%




Secretary of the Army
Commander, U.S. Army Corps of Engineers

This is a report on our audit of the Statement of Financial Position and
the Statement of Operations and Changes in Net Position for fiscal years
1997 and 1996 for the U.S. Army Corps of Engineers, Civil Works. The
Commander, U.S. Army Corps of Engineers and the Auditor General
signed an engagement letter in June 1997 defining this audit.

We couldn’t audit, and therefore can’t express an opinion on, the Corps’
financial statements, because there were fundamental weaknesses in the
Corps’ legacy financial system (COEMIS) and the Corps hasn’t fully
implemented its new financial management system (CEFMS). In
addition, we weren’t able to apply other procedures to satisfy ourselves
as to the fairness of the presentation of the statements.

We summarize our conclusions in the Auditor’s Opinion section of this
report, and present details of our conclusions in the Financial
Management Systems section. We will report the results of our review of
internal controls and management’s compliance with laws and
regulations in a separate report.

On a positive note, the Corps continues to make significant progress with
its initiatives to produce reliable financial information and to improve its
financial management practices. Its new automated Corps of Engineers’
Financial Management System (CEFMS) is in the fielding process. FY 97
marked the first year that a whole division used the system for an entire
year. Our continuing audits show that the system is operating with a
high degree of reliability and resolving many of the Corps’ financial
reporting problems. In addition, the Corps’ executive management
continues to foster an environment for improvements with a commitment
to open communications and working relationships.

I appreciate the cooperation and courtesies extended to us during the
audit.



                                   -NCIS        E. REARDON,
                                       The Auditor General
                                                   CONTENTS


                                                                                                                     Page

Auditor’s Opinion ......................................................................................................... 5



Financial Management Systems................................................................................ 9



Annexes

          A -       U.S. Army Corps of Engineers’ FY 97 Financial Statements ...............15

          B -       Others Receiving Copies of this Report .............................................. .59

          c    -    Audit Team.. ...........................................................................................61




N 97 Financial Statements, U.S. Amy Corps of Engineers-Opinion   (AA 9E112)                                   ContentdPag    1
                                       AUDITOR’S                       OPINION




N 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (M   9&t 12)   Auditor’s OpinnionlPage 3
                                     DEPARTMENT OF THE ARMY
                                         U.S. ARMY AUDIT AGENCY
                                     OFFICE OF THE AUDITOR GENERAL
                                         3101 PARK CENTER DRIVE
                                        ALEXANDRIA,  VA 2230246%




Secretary of the Army
Commander, U.S. Army Corps of Engineers

In accordance with the Chief Financial Officers Act of 1990, as amended
by the Government Management Reform Act of 1994, the U.S. Army
Corps of Engineers prepared the accompanying financial statements for
fiscal years 1997 and 1996. The Corps engaged us to audit its
Statement of Financial Position as of 30 September 1997 and its
Statement of Operations and Changes in Net Position for the fiscal years
ended 30 September 1997 and 1996. The Corps didn’t engage us to
audit the Statement of Financial Position as of 30 September 1996. The
financial statements are the responsibility of the Corps’ management.
Our responsibility is to express an opinion on these financial statements
based on our audit.

We couldn’t express an opinion on the reliability of the statements
because the Corps’ legacy financial system, which is still used by some
Corps divisions, is a single-entry system that isn’t integrated with other
Corps systems. Also, the system isn’t based on the U.S. Government’s
Standard General Ledger, lacks revenue and expense accounts and
doesn’t provide an adequate audit trail from the financial statements
back to the supporting transactions. Because the Corps hadn’t fully
implemented its new integrated financial system, it couldn’t provide
reasonable assurance that data reported in the statements was reliable.
In addition, we weren’t able to apply other auditing procedures to satisfy
ourselves as to the fairness of the presentation of the statements.

Therefore, we caution users that the information presented in the
financial statements may not be reliable.

Internal controls weren’t fully effective to ensure that there were no
material misstatements in the financial statements, and we found
instances of noncompliance with laws and regulations. For example, the
legacy financial system (COEMIS) used by the Corps to support its
financial statements didn’t meet the requirements of the Federal
Financial Management Improvement Act of 1996. The legacy system
didn’t substantially comply with Federal financial management system
requirements, applicable Federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level. As a
result, the risk of material misstatement in the financial statements is
FY97 financial Qatements, U.S. Army Corps of Engineers-Opinion (AA 98-112) Auditor’s Opinion/Page   5
high. We will present details of these matters in our separate report on
internal controls and compliance with laws and regulations.

We also reviewed, on a limited basis, the information presented in the
Corps’ overview section accompanying its financial statements. In
previous audits, we reported that the Corps needed to improve its
methods of measuring performance to effectively portray its civil works
mission. The Corps revised its strategic goals and objectives for FY 97.
However, it generally used the same performance measures in FY 97 that
it had used in previous years. Therefore, the significance of the
performance measures presented in the FY 97 overview still remain
questionable.

We performed our work in accordance with generally accepted
government auditing standards and Office of Management and Budget
Bulletin 93-06 (Audit Requirements for Federal Financial Statements) as
amended.




                                                              4&&A&$%X
                                                               The Auditor General




FY 97 Financial Statements, U.S. Amy Corps of Engineers-Opinion   (M 98-112)         Auditor’s Opinion/Page 6
                     FINANCIAL MANAGEMENT SYSTEMS




fY 97 Financial Statements, U.S. &my Corps of Enginnr+Opinion   (AA 98-l 12)   Financial Management Systems/Page 7
                     FINANCIAL                  MANAGEMENT                     SYSTEMS


We continued to have material uncertainties regarding the
reasonableness of reported amounts on the financial statements. This
occurred because 40 of 62 U.S. Army Corps of Engineers activities were
using the Corps’ legacy financial system during FY 97. Many Corps
activities converted to the new financial management system during the
fiscal year, however, 17 of those activities were still recording and
reporting financial data using the legacy system as of
30 September 1997. The legacy system, the Corps of Engineers
Management Information System (COEMIS), has fundamental
weaknesses that prevent the Corps from reporting reliable financial
information. Specifically, the system:

       l     Isn’t based on the U.S. Government’s Standard General Ledger,
             and the existing crosswalk isn’t accurate.

       l     Doesn’t include revenue and expense accounts.

       l     Isn’t integrated with other Corps systems.

We’ve documented these inadequacies in our audit reports since FY 93.
The Corps is aware of these problems and is fielding a new financial
management system -the Corps of Engineers Financial Management
System (CEFMS). Considering the fielding of the new system, scheduled
to be completed in FY 98, Corps management decided not to expend
significant resources to correct deficiencies associated with the legacy
system. However, material uncertainties regarding the reasonableness of
reported amounts on the financial statements will continue to exist as
long as the Corps relies on the legacy system.


Legacy           System Deficiencies

The Corps’ legacy financial system (COEMIS) isn’t based on the U.S.
Government’s Standard General Ledger and isn’t integrated with other
Corps’ systems.


Standard General Ledger

The Corps’ legacy system wasn’t based on the U.S. Government’s
Standard General Ledger. It required a crosswalk between its ledger


FY 97 Financial Statements, U.S. &my Corps of Engineers-Opinion   (A4 98112)     Financial Management Systems/Page 9
accounts and the standard ledger accounts. However, the crosswalk
wasn’t accurate because the old system lacked key accounts, including
revenue and expense accounts. To compensate for these deficiencies, the
Corps compiled its financial statements using budgetary accounting
information, external sources, and manual calculations which resulted in
inaccuracies causing the statements to be unreliable.


System Integration

The Corps’ hadn’t integrated its legacy system with other automated
systems to simultaneously update general and subsidiary ledger
accounts.  Integrated systems, which the Office of Management and
Budget Circular A- 127 required, are an important feature in any
financial management system because they reduce errors and save
valuable time.


Corps of Engineers                            Financial               Management        System

The Corps recognized that its legacy financial system had many
inadequacies.  It had begun development of a replacement system called
the Corps of Engineers Financial Management System (CEFMS).

We have worked with the Corps since FY 95 to help make sure the new
financial management system produces timely and reliable financiat
information.   FYs 96 and 97 marked the first years that CEFMS had been
fully operational for an entire year at the district and division levels. The
Corps plans to complete deployment to all districts, divisions, and
activities in FY 98.

The Southwestern Division was the first Corps division to fully implement
the new financial management system. We audited its financial
information and statements. In two separate reports, we will present:

        l    Our auditor’s opinion on the FY 97 financial statements.

        l    Results of our audit of management’s internal controls and
             compliance with laws and regulations.

To date, our audit results have shown that the new system is operating
with a high degree of reliability. It resolved standard general ledger and
integration deficiencies in the legacy system and enhanced internal
controls.


FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (M 98112)   Financial Management SystemdPage 10
Resolved Legacy System Deficiencies

The Corps built the new system using the Standard General Ledger. The
system contains both the budgetary and proprietary accounts to properly
record and report the transactions and events within the financial
management system.

The Corps has developed and continues to develop the new financial
management system to ensure integration with its other automated
systems. With integrated systems, only one keyed entry needs to be
made. For instance, the new system (CEFMS) is integrated with the Real
Estate Management Information System (REMIS). When a transaction
involving real estate (like procurement or disposal) is entered into either
system, both systems update automatically. A second entry isn’t needed.


Enhanced             Management                 Controls

The Corps’ new financial management system significantly improved its
management controls over financial data. The Corps built several key
internal controls into its new system. For example, the system:

           Provides selective permissions to users based on management
           approvals using an access control matrix.

           Requires signature cards and passwords that allow responsible
           personnel to have access to the system and enables electronic
           signature capabilities.

           Performs the financial accounting in the background based on
           established correlation tables.

Internal controls are integral to producing reliable financial statements.
The new system incorporates many controls that weren’t present in the
old system. The new system’s controls will allow the new system to
eliminate most of the past control weaknesses.




FY 97 Financial Statements, U.S. &my Corps of Engineers-Opinion   (M   98112)   Financial Management Systems%@   11
                                                      ANNEXES




FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (AA 9C112)   AnnexerlPae   13
                                                                                                                                           ANNEXA


     CORPS OF ENGINEERS                                                 FY 97 FINANCIAL                                    STATEMENTS




                                 U.S. ARMY CORPS OF ENGINEERS
                                          CZVIL WORKiS


                                                             Table of Contents

Overview ...............................................................................................................................                 1

Principal Statements ............................................................................................................                       17




FY 97 Financial Statements, U.S. Atmy Corps of Engineer+Opinion               (AA 96112)                                                   Annex #Paw    15
                                                                                         ANNEX A




                           u. S. ARMY                                         CORPS OF
                                               ENGINEERS

                                            CIVIL WORKis




                                                 OVERVIEW




                                                                          1




fY 97 financial   Statements, U.S. Any   Corps of Engineers-Opinion   (AA 98112)         Annex A/Page 16
                                                                                          ANNEX         A


                                U. S. ARMY CORPS OF ENGINEERS

                       MISSION AND PROGRAM PERFORMANCE


CIVIL WORKS MISSION STATEMENT

         The mission of the Civil Works Program of the Army Corps of Engineers is to promote
prosperity and democracy and to strengthen national security through the development,
management, protection, and enhancement of the Nation’s water and related land resources for
flood damage reduction, commercial navigation, environmental restoration, and allied purposes.
This program is accomplished by applying the Corps planning, engineering, scientific, and
management skills, in cooperation with non-Federal sponsors, Federal, state, and local agencies,
and other interested stakeholders, to achieve productive, efficient, responsible solutions to water
resources problems. The program provides for responsible stewardship of its water resources
infrastructure including the associated natural resources and provides emergency services to the
Nation for disaster relief The Civil Works Program also provides planning, engineering,
environmental, recreation, research and real estate services to other Federal agencies and non-
Federal customers, provides support to the Army in both peacetime pursuits and during national
emergencies, and stands ready to adapt to evolving national needs and priorities. The Corps,
moreover, plays a major role in the protection of waters of the United States, including wetlands,
by regulating the discharge of dredge and fill material into the Nation’s waters.

STRATEGIC             GOALS AND OBJECTIVES

        We will shape the accomplishment of our Strategic Coals through deliberate strategies for
success that take our key business drivers into account.



          Goal 1: Water Resources (WR)

       >Within available resources, provide the water resources infrastructure           to enhance
the Nation’s economic well-being.

                     - WRl : Anticipate, identify, and address the water resource in&structure
                             problems and development opportunities of the Nations and its major
                             river basins (e.g. Navigation, flood and coastal storm damage reduction,
                             hydropower, recreation facilities, water supply, etc.).
                     - WRla: Continue to satisfy the Nation’s water resources infrastructure needs
                              currently provided by existing projects.
                     - WR2: Provide justified levels of project services within available fbnds
                     - WR3 : Implement a communications plan to update stakeholders on project
                             progress, costs, and needs.

                                                                           3

FY 97 Financial Statements, U.S. Army Corps of Engineer+Opinion   (AA 98-l 12)             Annex A/Page 17
          Goal 2: Environmental                 Leadership (EL)

      >Lead in the management,                       protection, and restoration of the Nation’s land and
water resources.

                      - EL1 : Reallocate resources from flood damage reduction and navigation to
                               environmental missions.
                      - EL2: Increase the public’s awareness of the Corp’s environmental performance.
                      - EL3: Be recognized as the Nation’s leader in environmental restoration.
                      - EL4: Continue to aggressively implement plans to ensure compliance with
                              environmental laws on existing Corps projects.
                      - EL5: Improve the stewardship of 12 million acres of land and water managed
                              by the Corps.
                      - EL6: Increase the overall performance and effectiveness of the Department of
                              the Army regulatory program.


          Goal 3: Disaster Response (DR)

          >Provide timely, effective, and effkient disaster mitigation, response, and recovery.

                      - DS 1: Fully implement the Readiness 2000 program to reduce costs and
                              increase responsiveness
                      - DS2: Aggressively address and utilize innovative methods to improve flood
                              plain management practices

          Goal 4: Engineering                and Technical Expertise (ET)

        >Leverage state-of-the-art expertise to improve the delivery of program results for
current and future customers, and to maintain these capabilities for surge or related
national security purposes.

                      - ET1 : Identify, market, and capitalize on growth opportunities
                      - ET2: Assess Civil Works mission requirements in 2004 and translate these to
                              technology and technical expertise needs.
                      - ET3: Incorporate state-of-the-art technology and business practices in the field,
                              labs, and center of expertise




                                                                             4


N 97 financial   Statements, U.S. Army Corps of Engineers-Opinion   (AA 98112)                      Annex A/Page 18
          Goal 5: Workforce (W)

          >Develop, motivate, and retain an empowered, world-class workforce
                 - W 1: Develop and implement a plan to improve employee satisfaction.
                     - W2: Establish a process to identity, acquire and apply required skills to satisfy
                           customer needs and improve customer satisfaction.
                     - W3: Increase professional development (certificates and advanced degrees).
                     - W4: Review and improve methods of internal communication.

          Goal 6: Resource Stewardship                    (RS)

        >Be recognized as the leading Army program in effectively and efficiently applying
its resources to achieve its mission.

                     - RS 1: Prioritize and reengineer product delivery processes to optimize use of the
                      single team/multiple location concept and increased technology use.
                     - RS2: Optimize outsourcing and privatization partnerships with the private
                               sector to decrease costs, reduce cycle time, and increase productivity.
                     - RS3: Implement a leading-edge technology plan to exceed requirements for
                               mission execution (customer and employee needs).


         Meeting these goals and objectives will enhance the Nation’s prosperity through capital
investments in new economic and environmental infrastructure and operation and maintenance of
its existing infrastructure. It will also provide a trained workforce, which can promote democracy
and respond to natural and national emergencies, thereby enhancing security.

FUNDING

       The Civil Works Program receives Federal funding through the annual Energy and Water
Development Appropriations Act. Program flmding also comes from non-Federal project
sponsors who share in project costs according to formulas established by project authorization
acts. A third source of funding comes from through the Support for Others Program, which is
conducted under reimbursable agreements with Federal agencies. The tables on the following
page show the amount of FY 1997 finding by source and business program.




FY 97 Financial Statements, U.S. Amy Corps of Engineers-Opinion   (AA 9&l 12)                 Annex M?age 19
                                                                                     ANNEX A




BUSINESS PROGRAMS

The Civil Works Program will accomplish these strategic goals by providing important services in
eight business programs: flood and coastal storm damage reduction, navigation, environment,
hydropower, recreation, regulatory, emergency preparedness and disaster response, and support
for others. Program performance goals are being established for each of the eight programs to
demonstrate progress in achieving the strategic goals. Program performance measures being used
in Fiscal Year 1997 to measure performance in achieving program goals are described below.
Other measures, which will be used in Fiscal 1998 and beyond, are being developed.



                            Flood and Coastal Storm Damage Reduction
Description.    There are two general approaches to reducing flood damages. The first approach
consists of constructing large scale engineering projects which operate to prevent flood waters
from inundating property. The second approach consists of modifjling property susceptible to
flood damage to minimize the risk of flood damage. Frequently, a combination of approaches is
used in Corps projects to prevent flood damages. Most of the Corps’ flood and coastal storm
damage reduction projects are constructed as joint ventures between the Federal government and
non-Federal sponsors. New projects, once built, are owned, operated and maintained by the non-
Federal sponsor. The Corps, however, has older projects, mostly reservoirs, which it operates
and maintains. The Nation has invested $33 billion in flood damage reduction projects through
FY 96 and has prevented $3 19 billion in flood damages. The time stream of investment dollars
and damages prevented can be compared when adjusted for different price levels. The program
has yield a return of six dollars in flood damage reduction for every dollar invested.

Strategy.   Two program strategies have been established to respond to the strategic goals. They
are as follows:

        1. New investments will be undertaken which meet criteria for Federal participation and
have been benefits in excess of costs.
        2. Existing Federal infrastructure will be operated and managed to maximize the value of
the services provided within available funds.




                                                                             6



FY97   Financial Statementr, U.S. Army Corps of Engineers-Opinion   (AA 98112)        Annex A/Page 20
                                                                                  ANNEX A


                                    Army Corps of Engineers
                      97 Civil Works and Support For Others Program Funding

                                           Funding Source




r Energy and Water Development Appropriation Act. Includes Trust Fund contributions.
* Reimbursable work for other agencies. (Preliminary value.)
3 Non-Federal contributed funds (cash contributions required by law for budgeted work and work
to be done on a reimbursable basis in conjunction with authorized project work).
4 Includes supplemental appropriations.
’ Other reports on Coastal Wetlands Restoration Trust Fund work.

                                      FY 97 Funding By Business Program




*’ Reimbursable          Work for Other Agencies (Preliminary).

                                                                       7

Fv97   Financial Statements, U.S. Army Corps of Engineers-Opinion   (AA 9C112)     Annex A/Page 2 1
Performance       Measures and Annual Performance Targets.

Performance       Measure Number 1: Actual performance of Corps facilities in providing flood
damage reduction where flooding would have otherwise been experienced.

         Performance        Target Number 1: Maintain Corps facilities to provide the design level of
flood damage reduction.

         Performance        Achieved:
                                                          FY 94              FY 95   FY 96    FY 97
         Flood Damages Prevented                         $17.OB             $26.8B   $22.6B    NA


                                                         Navigation
Description:     The navigation program includes improvement and maintenance of harbors
handling all of the Nation’s seaborne commerce. The Corps combines direct appropriations with
funds appropriated from the Harbor Maintenance Trust Fund to maintain navigability in 114 major
deep draft harbors and over 400 smaller harbors. The Corps also has built an intracoastal and
inland network of 12,000 miles of commercial navigation channels and over 200 locks and dams.
Major improvements to inland waterway facilities are financed in part by the Inland Waterway
Trust Fund. More than 600 million tons of commerce are moved every year on these waterways.
 Maintaining the navigation system, ports and inland waterways involves removing more than 230
million cubic yards of dredged material each year.

Strategy. Two program strategies have been established to respond to the strategic goals. They
are as follows:

        1. New investments will be undertaken which meet criteria for Federal participation and
have benefits in excess of costs.
        2. Existing navigation infrastructure will be operated and managed to maximize the value
of the services provided within available funds.

Performance        Measures and Annual Performance Targets.

Performance Measure Number 1: Actual performance of Corps facilities in providing low cost
transportation of commerce. This measure looks at the volume of commerce and the cost to
operate the fuel taxed waterways component of the navigation system.

        Performance Target Number 1: Maintain Corps facilities to provide low cost
transportation of bulk commodities to world markets.



                                                                        8

M 97 Financial Statements,U.S. &my   Corps of Engineerr-Opinion (AA 98-112)                       Annex A/Page 22
Performance Achieved:
                                                     FY 94                  FY 95               FY 96          FY 97
Ton Miles of Commerce                                 265.OB               276.5B               266B           TBD
Cost per Ton Mile*                                  $0.0018               $0.0018               $0.0018        TBD

* Ton-mile data is reported on a calendar year basis; costs are on a fiscal year basis.

Performance          Measure Number 2: Percent of time inland navigation infrastructure (waterways,
harbors, channels, and structures) were available for acceptable level of service.

           Performance          Target Number 2: Maintain Corps facilities to be available 95% of the time
they are scheduled to be available.

           Performance          Achieved:
                                                                   FY 94                FY 95          FY 96           FY 97
           Actual Availability                                     98%                  99%             98%            TBD

Performance          Measure Number 3: Minimize costs of dredging while assuring safe and reliable
harbor and channel availability.

         Performance Target Number 3: The volume of material dredged are largely dependent
upon acts of nature and factors beyond the control of man; so no performance target is
established. Depth of material to be dredged and placement of dredged material influence cost of
material dredged.

           Performance          Achieved:
                                                      FY 94                     FY 95           FY 96(est)             FY 97
           Cubic Yards Removed *                      264M                      217M            234M                   TBD
           Cost Per Cubic Yard                        $1.61                     $1.88           $1.81                  TBD

*Volume of material dredged reflects maintenance dredging; it does not include dredging done for
new construction projects.




                                                                      9


M 97   Financial Statements, U.S. &my Corps of Engineers-Opinion   (AA 96112)                                    Annex #Page 23
                                                                                         ANNEXA


                                                       Environment


Description: The environment program is similar to the preceding two programs in having a new
investment component and an operation and maintenance component for existing projects.
Capital investment is directed into environmental restoration and mitigation features at existing
and new projects. The Corps has authority to incorporate ecosystem restoration in plans for new
projects, as a modification of existing projects, and in determining placement of dredged material
from authorized navigation projects. It also has some authority to restore ecosystems where a
Corps project contributed to degradation of the environment. At existing Corps operated
projects, the Corps uses the Environmental Review Guide for Operations to locate and plan
corrective action for environmental compliance deficiencies. District elements, regulatory
agencies and private contractors offer support to facility managers who identify environmental
compliance strengths and weaknesses in their own operations.

Strategy: Three program strategies have been established to respond to the strategic goals. They
are as follows:

          I. Investments in Corps mitigation and restoration projects or features make positive
contributions to the environment resource base of the nation.
          2. Investments in Corps mitigation and restoration projects and the operation of Corps
facilities should assist in the recovery of Federally listed threatened and endangered species.
          3. Assure that the operation of all Civil Works facilities and management of associated
lands (including out granted areas) comply with environmental requirements contained in relevant
Federal, state and local laws and regulations.

Performance Measures and Annual Performance Targets.

Performance Measure Number 1: Percent of Corps administered mitigation land (acres)
meeting the requirements in the authorizing legislation or relevant Corps of Engineers decision
document. This measure is the number of designated Corps administered mitigation land (acres)
meeting mitigation requirements divided by the total number of designated Corps administered
mitigation lands (acres).

        Performance Target Number 1: Target is 70% of Corps administered mitigation lands
(acres) achieving Corps mitigation requirements.

          Performance Achieved:                              FY 96          FY 97
          -Total acres designated as Corps
              and administered mitigation acres      1,100,834      (Results
          -Mitigation acres meeting requirements              577,068        under
          -Percent of Corps administered mitigation                          analysis)
              lands (acres) achieving Corps
              mitigation requirements.                             52%
                                                  10

W 97 Financial Statemmts, U.S. Army Corps of EngineersOpinion   (AA 98112)               Annex A/Page 24
Performance Measure Number 2: Percent of Federally listed species with final Fish and Wildlife
Service (FWS)Mational Marine Fisheries Service (NMFS) Recovery Plans for which Corps is
accomplishing ascribed FWSLNMFS Recovery Plan requirements. This measure is the number of
species with final FWS/NMFS Recovery Plan requirements divided by the number of species for
which the Corps has recovery requirements specified in final FWS/NMPS Recovery Plans.

          Performance Target Number 2: Target is to accomplish Recovery Plan requirements for
30% of Federally listed species identified in those Recovery Plans.

          Performance Achieved:                                                 N   96   N   97
          -Number of species with Final Recovery Plans
              for which Corps is accomplishing requirements. N/A                         (Results
          -Number of species for which Corps has recovery                                 under
             requirements specified in final Recovery Plans. N/A                          analysis)
          -Percent of Federally listed species identified
             in those Recovery Plans where Corps is
           accomplishing Recovery Plan requirements          N/A

Performance         Measure Number 3: Percent of Corps acreage included within North America
Waterfowl Management Plan (NAWMP) Joint Venture Implementation Plan (JVIP) is where
work has been accomplished in support of Implementation Plan goals. This measure is the
number of Corps land and water acres identified in NAWMP-JVIP where work has been
accomplished in support of JVIP goals, divided by the total Corps land and water acres included
in the NAWMP-JVIP.

       Performance Target Number 3: Target is 30% of Corps acres identified in NAWMP-
JVIPs have been improved in accordance with NAWMP-JVIP goals.                     ,

          Performance Achieved:                                                 N   96   N   97
          -Corps land/water acres identified in
            NAWMP-JVIP where work has been
             accomplished in support of JVIP goals.                             N/A      (Results
          -Corps land and water acres included                                            under
             in the NAWMP-JVIP                                                  N/A       analysis)
          -Percent of Corps acres identified in
          NAWMP-JVIP improved in accordance
          with NAWMP-JVIP goals.                                                N/A



                                                                       11




FY 97 Financial Statements, U.S. Army Corps of Engineer+Opinioe   [M   98112)                         Annex #Page 25
                                                                                        ANNEXA




Performance         Measure Number 1 (Compliance): Percent of all significant findings corrected
annually and percent of major findings corrected annually.

        Performance Target Number 1: Target for FY 97 is to correct 100% of all significant
findings and correct 65% of all major findings.

          Performance          Achieved:
                                                                                FY 97
          Number of Significant Findings                                        11
          % Corrected                                                           100%

          Number of Major Finding                                               798
          % Corrected                                                           49%




                                                           Regulatory

Description: The Corps operates a comprehensive regulatory program which, through extensive
public interest review, protects navigation and regulates the deposit of dredged and fill materials
into the Nation’s waters.

Strategies: The following program strategies have been established to respond to the strategic
goals.

        1. Administer the Regulatory Program in a manner that renders fair and reasonable
decisions for applicants.
        2. Administer the Regulatory Program in a manner that provides for efficient decision
making.

Performance         Measures and Annual Targets.

Performance   Measure Number 1: Percent of decisions completed within 60 days on requests to
do work in U. S. waters. Number of all actions (individual permits, general permits, letters of
permission, and denials) completed in 60 days divided by the total number of requests.




                                                                      12


FV 97 Financial Statements, U.S. Anny Cofpr of Engineers-Opinion   (AA 98112)            Anna   A/Page 26
          Performance            Target Number 1: Target is to complete 85% of all actions in 60 days.

          Performance            Achieved:
                                                              FY 94           FY 95            FY 96           FY 97
          Number of Permit Actions                           58,391          73,515           71,870           80,613
          % Completed within 60 days                         91%              93%              94%              94%

Performance          Measure Number 2: Percent of decisions completed within 120 days on requests
to do work in the U.S. waters if the proposal needs a standard permit; that is, the project is a
larger one requiring more extensive review.

          Performance            Target Number 2: Target is to complete 70% of Individual Petmits in 120
days.
          Performance            Achieved:
                                          FY 94     FY 95     FY 96                                                     FY 97
          Number of Permit Actions        4,157     4,603     4,247                                                     3,875
          % Completed within 120 days 74%       78%       80%       79%

Performance          Measure Number 3: Percent of pending permit applications over two years old.

        Performance Target Number 3: Target is to have no more than 0.8% of pending
individual permit applications over two years old.

          Performance            Achieved:
                                                                         FY 94        FY 95            FY 96            FY 97
          Number of individual permits pending
          over two years at end of FY                                        NA        39              22               25
          % of indiv’idual permits pending over
          two years at end of FY                                             NA       0.8%             0.4%             0.5%

                                                           Hydropower

Description: The Corps operates 75 hydroelectric power generating units at many of its
multipurpose reservoirs. The generation of electricity from these units is done from a renewable
energy source and results in a significant supply of electricity to the nation. The electricity is
made available to Federal power marketing agencies which market the power.

Strategy:  One program strategy has been established to respond to the strategic goals. It is to
maintain hydroelectric power production with a high degree generating unit availability at
competitive cost.



                                                                       13


FY97 Financial   S~temenh,   U.S. Awny Corps of Engineers-Opinion   (AA 96112)                                    Annex A/Paw 27
                                                                                                  ANNEXA




Performance        Measures and Annual Targets. Two program performance measures have been
developed.

Performance   Measure Number 1: Actual performance of hydroelectric generating units at
multi-purpose reservoir projects in providing power at competitive cost.

          Performance         Target Number 1: Historical performance has been recorded without an
explicit performance target.

          Performance         Achieved:
                                                               FY 94             FY 95    FY 96       FY 97
          Kilowatt Hours Generated                             68.2B             77.4B     TBD         TBD
          Cost Per Kilowatt Hour                              $0.0025           $0.0024    TBD         TBD

Performance         Measure Number 2: Maintain a high degree of hydroelectric generating unit
availability at multiple purpose projects.

          Performance          Target Number 2: Maintain generating unit availability at 90% of
scheduled availability.

          Performance          Achieved:                          FY 94         FY 95     FY 96       FY 97
          Performance Target                                       93%           90%       90%         TBD
          Actual Availability                                     88.9%         87.9%     88.4%        TBD

                                                          Recreation

Description.   There are 4,338 recreation areas at multipurpose reservoirs built by the Corps of
Engineers. Of these 2,5 18 are operated and maintained by the Corps and the others are operated
and maintained by non-Federal entities. These areas provide opportunities for camping,
swimming, boating, picnicking and related activities. The operation and maintenance of the
recreation areas must be compatible with and not in conflict with the underlying primary purposes
for which the reservoirs were authorized; i.e., flood protection and/or navigation.

Strategy: The following program strategies have been established to respond to the strategic
goals. They are as follows:

        1. Provide outdoor recreation opportunities in an effective and efficient manner at Corps
operated water resource projects.
        2. Provide continued outdoor recreation opportunities to meet the needs of present and
titure generations.

                                                                     14


W 97 financial Statement5, U.S. Awny Corps of Engineers-Opinion   (AA 9ai 12)                     Annex #Page 28
                                                                                             ANNEX A



Program Performance               Measures and Annual Targets.

Performance        Measure Number 1: Cost of visitor day in providing outdoor recreation services.

         Performance Target Number 1: The cost per visitor day is determined in part by number
of recreation visitors. The visitor day parameter is influenced by weather and economic
conditions that are not under the management influence of the Corps of Engineers. The cost of
providing recreation opportunities is a variable that can be managed by Corps managers.
Historically, a management performance target has not been specified because of the inability to
significantly influence the visitor day component of the measure. Actual statistical performance
has instead been reported.

          Performance         Achieved:
                                                               FY 94       FY 95    FY 96        FY 97
          Visitor Days                                         205M        205M      212M        213M
          Cost Per Visitor Day                                 $0.84        $0.83    $0.84       $0.83


                                              Emergency Management

Description:   The Civil Works Program includes a disaster response and recovery program. The
program is pursued under the Corps own authority under Public Law (P.L.) 84-99 and under the
Federal Response Plan in coordination with the Federal Emergency Management Agency (FEMA)
and others. Response activities are supplemental to state and local efforts. The Corps disaster
response and recovery program is not limited to water resource related disasters. Disaster
preparedness and response capabilities encompass a broad range of natural disasters and national
emergencies because of the engineering skills and management capabilities that are maintained at a
readiness state through peacetime Corps Civil Works Program support. The emergency
preparedness planning and disaster response capability makes a significant and direct contribution
to national security objectives.

Strategy. Two program strategies have been established to respond to the strategic goals. They
are as follows:

          1. Attain and maintain a high consistent state of preparedness.
          2. Provide for a rapid, effective, efficient all-hazards response.

Performance         Measures and Annual Targets. Performance measures for this program are being
developed.


                                                                  15


FY 97 Financial Statements, U.S. Amy Corps   ofEngineers-Opinion
                                                              (AA 9bll2)                     Annex A/Page 29
                                                                                      ANNEX A




                                                    Support for Others
Description. The Corps’ Support for Others Program provides technical and specialized contract
management assistance to about 60 other Federal agencies, state, local, tribal and foreign
governments, international organizations, and private firms. Support is provided on a
reimbursable basis. The Corps’ considerable and far ranging environmental expertise is drawn
upon by the Environmental Protection Agency and the Department of Energy to assist them in the
Superfund Program and cleanup at nuclear production facilities, respectively. Corps support of
other agency infrastructure programs includes designing and building border control facilities for
the Immigration and Naturalization Service, drug testing laboratories for the Drug Enforcement
Administration, and inspections of public housing renovations for the Department of Housing and
Urban Development.

Strategy:        Ensure customer satisfaction.

Performance Measure and Annual Target. Performance measures are being developed for this
program.




                                                                      16

fY97   financial Statementr, U.S. Amy Corps of Engineers-Opinion   (AA 9&l 12)         Annex AtPage 30
                          U.S. ARMY CORPS OF
                               ENGINEERS




               PHNCIPAL                                            STATEMENTS


                          SEPTEMBER 30,1997




                                                                        17




FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (M   98-l 12)   Annex A/Page 3 1
                                                                                   ANNEX A


                                                                   UNAUDITED

Department of Defense
U. S. Army Corps of Engineers
Statement of Financial Position
As of September 30,1997
(Thousands)
ASSETS
1. Entity-
   A. Transactionswitb Federal(Intqovcmmcntal) Entities:
      (I) FundEklanccwitbTrcasmy(Note 2)                                       $2.097.700       S1.610.934
      (2) In-         Net (N* 4)                                                  302,984          278,995
      (3) Accounts Receivable.Net (Note 5)                                        280,160          355,616
      (4) Inkrest Receivable                                                        1,573            1.537
      (5) Advances and F’rcpaymmts                                               (14,594)
      (6) ocher Federal(Intragovmuncntal)(Note 6)                                                     (12.555)
   b. Transactionswith Non-Federal(Govcmmmtal) Entities:
           (I) Io=t=n@(Nb4)
           (2) Accouw Receivable.Net (Note 5)                                     614,238              20.9OI
           (3) Credit Pro-      Receivables/Related
                Foreclosed Rope@, Net (Note 7)
           (4) InterestReceivable, Net
           (5) Advancesand Prepaymalts                                              7,Ol I               2,821
           (6) ocher Non-Federal(Governmental)(Note 6)                              (920)             (43,873)
     c.    Cash and ocher Monetary Assets(Note 3)                                   2,401
     d     lnvcr~toty, Net (Note 8)                                                 8.608
     c.    WorkinProccss(Note9)
     f.    GperatingMatcrid&upplis. Net (Note 10)                                     643               9.185
     g.    Stockpile Materials,Net (Note 1I)
     h     Seized Property (Note 12)
      i.    Forfeited Ropnty. Net (Note 13)
      j.   Goods Held Under Price Suppottand
           StabilizationPrograms.Net (Note 14)
     t      ELEt            and Equipment.Net (Note 15)                        37.263.466       38,657,678

     m. other Entity Assets                                                     (216,048)         219,559
     n. TotalJhtUyAmts                                                         M&347.222       S41.100,798

2.   Non-Entity Aneta:
     L T-ions            with Federal(lntragovcmmcntal)Entities:
           (1)   FundBalancewitbTrcasury(Notc2)                                   S76.146             s54,311
           (2)   AccountsReceivable, Net (Note 5)                                                       1,842
           (3)   InterestReceivable, Net
           (4)   Gtba (Note 6)

     b. Tramactionswith Non-Federal(Govcmmcotal) Entities:
         (1) AccountsReceivable, Net (Note 5)                                         130             550.331
        (2) Inter& Receivable, Net
        (3) Gth=(N*6)
     c. CasbandOtbcrMonetaryAsscts(Notc3)                                             215
     d WaNon-EntityAssets
     c TotalNon-IbMtyAsub                                                         S76.491         WM.484

3. ToWAneta                                                                    WO.423.713      S4 1.707.282


Tbe accompanying notes are an integral part of these statements.




FY 97 financial Statements,U.S. Army Corps of EngineercOpinion (AA 98112)           Annex AfPage 32
                                                                                           ANNEX A


                                                                   UNAUDITED

Department of Defense
U. S. Army Corps of Engineers
Statement of Financial Position
As of September 30,1997
(Thousands)
LIABILITIES
4. UmbiUtin Covcrtd by BudSthy    Resources:
   L Transahons with F&ml (htragovcmmental)            Entities:
        (I)   Accounts Payable                                                          s659.034           S167.978
        (2)   Merest Payable
        (3)   Debt (Note 16)
        (4)   Other Federal (lnb~govcmmental)   Liabilities (Note 17)                     36,235               26,458
     b. Transactions with Non-Federal (Gov-cntal)     Entities:
        ( 1) Accounts Payable                                                           $432,594           S423.838
        (2) Acc~cd Payroll and Ben&s
             (a) Sataries and Wages                                                     (llJS4)                80,889
             (b) Annual Accrued Leave                                                    295,900              168.866
             (c) Severance Pay and Separation Allowance                                      (74)
        (3) lntmst Payable
        (4) Liabilities for Loan Guamntm (Note 7)
        (5) hse     Liabilities (Note IS)
        (6) Pen&m and Gtha Actuarial Liabilities (Note 19)
        (7) Other Non-Fedaal (Govmmcntal)
             Liabilities (Note 17)                                                       272,979            131,669
     c TeW LisbBitles Covtrtd by Budgetary Resources:                                 S1,685.114           S999.698

5.    Lbbilities Not Covtred by Budgetary Rtsourca:
     L Transactions with Federal (lntragovcmmcntal) Entities:
        (1) Accounts Payable
        (2) Debt(Nott 16)
        (3) C&ha Federal (Intragovernmental) Liabilities (Note 17)                                              1.641
     b. Transactiom with Non-Federal (Governmental) Entities:
        (1) Accounts Payable
        (2) Debt (Note 16)
        (3) Lease Liabilities (Note 18)
        (4) Pensions and Gtha Actuarial Liabilities (Note 19)
         (5) Gthcr Non-Federal (Governmental) Liabilities (Note 17)                                         349,434
     c. TOM IJabUitka Not Covtrtd by Budgetmy Resources                                                    ss51,075

6.   TOW Lhbillties                                                                   S1.685.114         Sl,550,773

NET POSITION         (Nott 20)

7.    Bnhnces:
     a. Uncapended Appropriations                                                     s1,190,904         S2.242.060
     b. InvestcdCapital                                                               37,462,256         38,402,480
     c. Cumulative Results oFOperations                                                    65.95 1           63.044
     d.Otbcr                                                                               19.488
     e. Future Funding Requirements                                                                       (55 1,075)
     C Tohl    Net PoaMon                                                            S38.738.599        S40,156,509

R    Total JAabBitia and Net Poaltion                                                S40,423,713        S41.707.282



The accompanying notes are an integral part of these statements.




FY 97 Financial StatemcnB, U.S. Army Corps of Engineer+Opinion          (AA 96112)          Annex AlPage 33
                                                                                         ANNEX A


                                                          UNAUDITED


Department of Defense
U. S. Army Corps of Engineers
Statement of Operations and Changes in Net Position
For tbe Period Ended September 30,1997
(Thousands)

REVJ3NUESANDFINANClNGSOURCES                                                  l2E

 1. Appqriated Capital Used                                                    $3.196.835               S3.708.850
 2. Revmua &om Sales of Goods and Services
    a. To the Public                                                                17,181
    b. lntragov-mtal                                                            2.500.524                    3.301.497    -
 3. Merest and Penalties, Non-Federal                                                                                14
 4. Intcrc&Federal                                                                   17,021                      15.519
 5. Taxes(Note21)
 6. Other Revenues and Fiicing     Sources (Note 22)                                723.571                   262,072
 7. Lea: Taxes and Receipts Transferred lo
    the Treasury or Other Agencies                                              (339,325)                (191.786)
 8. TotdRwenmdF~~Soarcn                                                        S6,115,807               S7.096.166


EXPENSES

 9. Prow      or Operating Expenses (Note 23)                                  $4.108.984                   S5,945,585
10. Cost of Goods Sold (Note 24)
     a. To the Public                                                               5,683
     b. lntragovemmmtal                                                           323,611                     812.971
11. Depreciation and Amortization                                               1.305.029                     349,603
12. Bad Debts and Writeoffs                                                                                        70
13. Jntaest
    a. Federal Fioancing BankTreasury Borrowing
    b. Federal Securities
    c. other                                                                           372
14. Other Expmses (Note 25)                                                       218,789
Is. TotalExpenses                                                              S5.962.468                   S7,108,229


16. Excess (Shottage) of Revmues and
    Financing Sources Over Total Expenses
    &fore Extraordinaq Ikms                                                      s153.339                    (S12,063)
17. Plus (Minus) Extraordinary Items (Note 26)                                     (1,872)
18. Excess (Shortage) of Revmua and
    Fiicing   Sources Over Total Expenses                                        S151.467                    ($12,063)


19. Nd Podtion,Bqhln~Rdance,nPrevlouatyStated                                 S40,156,509              S40,230,122
20. Adjustmmt8 (Note 27)                                                        (325,650)
21. Net Paition, &ginning Balance, as Restated                                 39.830.859               40.230.122
22. Excess (Shoti&    of Revmua and
    Financing Sources Over Total Expmses                                           151,467                 (12,063)
23. Plus (Minus) Non Opmtiog Cbmgcs (Note 28)                                  (1,243,727)                 (61.550)
24. Net Poddon,Edb~~Rahncc                                                    S38,738,599              $40,156,509




The accompanyiog notes are an integral part of tbese statements.




FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion (AA 98112)               Annex AlPage 34
                          U.S.ARMY CORPS OF
                              ENGINEERS


                                        CIVIL WORKiS


                   NOTES TO THE
                    PMNCIPAL
              FINANCIAL STATEMENTS

           AS OF SEPTEMBER 30,1997




W 97 Financial Statements, U.S. &my Corps of Engineerc-Opinion   (AA 98112)   Annex Alpage 35
                                                                                                I
                                                                                                        ANNEX        A




NOTE 1. Simificant Accountine Policies:

A. Basis of Presentation. The Corps of Engineers Funds with Treasury balances have been adjusted to agree with
Treasury’s balances in accordance with Treasury policy.

B. Reoortine Entity. The Corps ofEngineers Management information System (COEMIS) has not been
programmed to capture data under GL 5700 (Appropriations Expensed) or GL 6100 (Program Operating
Expenses) on the Statement of Operations. Therefore, Appropriations Expensed and Program Operating Expenses
have been adjusted on all statements.

C. Budmts and Budpetarv Accounting. The Civil Works Program receives Federal funding through annual
Energy and Water Development Appropriations Acts. Program funding also comes from non-Federal project
sponsors who share in project costs according to formulas established by project authorization acts. A third source
of funding comes through the Support for Others Program, which is conducted under reimbursable agreements
with Federal agencies.

The accounts used to prepare the principal statements are classified as entity/nonentity   and by type of fund.

Entity Accounts:

General Funds
96X3 112            Flood Control, Mississippi River and Tributaries
96X3121             General Investigations
96X3 122            Construction, General
96X3 123            Operation and Maintenance, General
963l73 123          Operation and Maintenance, General (fiscal year)
96X3 124            General Expenses
96953 124           General Expenses (fiscal year)
96X3 125            Flood Control and Coastal Emergencies
%3/73125            Flood Control and Coastal Emergencies (fiscal year)
%X3 126             Regulatory Program
96x3930             Consolidated Working Fund

Revolving Funds
%X4902          Revolving fund

Special Funds
96x5007             Special Recreation Use Fees
%X5066              Hydraulic Mining in California, Debris
96x5090             Payments to States, Flood Control Act of 1954
96X5 125            Maintenance and Operation of Dams and Other Improvements of Navigable
 Water

Trust Funds
96X8333             Coastal Wetlands Restoration Trust Fund
96X886 1            Inland Waterways Trust Fund
%X8862              Rivers and Harbors Contributed and Advance Funds
%X8868              Oil Spill Research

Transfer Funds
% 12x1105            State and Private Forestry, Forest Service
96 13X2050           Economic Development Administration
96 14X1039           Construction National Park Service
96 21X2020           OMA, AmericanSamoa Projects
N 97 Financial Statements, U.S. Amy Corps of Engineer+Opinion (AA 9&l   12)                              Annex A/Page 36
                                                                                                   ANNEX A


96   46X0200        Appalachian Regional Development Program
96   47X4542        GSA Building Delegation Program
%    89X0224        Energy supply, Department of Energy
96   89X4045        Bonneville Power Administration

Non-Entity:

Deposit Funds
%X6075              Withheld Allotment of Compensation for Payment of Employee Organization
Dues
%X6094              Advances from the District of Columbia
%X6134              Amounts Withheld for Civilian Pay Allotments
%X6145              Technical Assistance, United States Dollars Advanced from Foreign Government
%X6302              Moneys Withheld from Contractors
%X6875              suspense
%X6999              Accounts Payable, Check Issue Underdrafts

Clearing Accounts
%F3875           Budget Clearing Account
%F3878           Deposits in Transit Differences
96F3879          Undistributed and Letter of Credit Differences
%F3880           Unavailable Check Cancellations and Overpayments
%F3886           TSP

Receipt Accounts
96089 1 Miscellaneous fees for regulatory and judicial services, not otherwise classified
%1099 Fines, Penalties, and forfeitures, not otherwise classified
961435 General Fund Proprietary Interest, Not Otherwise Classified
963220 General Fund Proprietary Receipts. Not Otherwise Classified, AI1Other
965007 Special Recreation Use Fees, Bureau of Land Management, Interior
965090 Receipts from leases of lands acquired for flood control, navigation, and allied
purposes
965 125 Licenses under Federal Power Act, Improvements of navigable water,
maintenance and operation of dams, etc., (50%)




FY 97 Financial Statements,U.S. Army Corps of Engineers-Opinion (M 9El121                          Annex APage 37
                                                                                                            ANNEX A


NOTE 2. Fund Balances with Treasure:

A. Fund and Account Bahnces:

                                                                                 Entitv Assets
                                                                    Revolv-             Appro-      Other
                                                Trust                  kg               priated     Fund
                                                Funds                 Funds             Funds       Tvnes      w


Unobligated Balance Available:
 Available                                       $66,992             $404,765         $1,471,605            $1,943,362
 Restricted
Reserve For Anticipated Resources
Obligated (but not expensed)                     104,308              250,746           (200,716)              154,338
Unfunded Contract Authority
Unused Borrowing Authority
 Treasury Balance                              $171.300              $655.5 11        $1.270.889            $2.097.700




B. Other Information: S76,146k reflects the sum of the fund balances in deposit, suspense and budget clearing
accounts. This amount is reported as a nonentity asset on the Statement of Financial Position, Line 2a(l).
Appropriated Funds include S3,055k in transfer appropriations which were not included on the FMS 2108 “Year
End Closing Statement”. Revolving Fund Unobligated Balance is adjusted for COEMIS sites by an amount of
S254,146k. General Ledgers are posting incorrectly in COEMIS.




W 97 Financial Statements, U.S. Amy Corps of Engineer+Opinion   (AA 98-l 12)                                 Annex A/Page 38
NOTE 3. Cash, Foreign Currencv and Other Monetarv Assets:

                                                               Entitv Assets             Non-Entitv   Assets


A. Cash                                                                         $2,401       -        $215
B. Foreign Currency
C. Other Monetary Assets:
      (1)    Gold
      (2)    Special Drawing Rights
      (3)    US Reserves in the Inter-
        national Monetary Fund
   (4) Other
   (5) Total Other Monetary Assets
D. Total Cash, Foreign Currency and
          Other Monetary Assets                           r                     $2.401   >            $215




FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (AA 9bl12)                                  Annex NPage 39
                                                                                                       ANNEX        A



NOTE 4. Investments,               Net:


                                                    (1)              (2)         (3)         (4)           (5)
                                                                             AtllOtti-   Amortized
                                                                  Market     zation       Premium/    Investments
                                                  Qg               Value     Method      (Discount)        Net
A. Intragovernmental           Securities:
   (1) Marketable                              $302,984                                                 $302,984
    (2) Non-Marketable
      Par Value
    (3) Non-Marketable
      Market Based
     Subtotal                                  $302,984                                                 $302,984


B. Governmental          Securities:
    (1)
    (2)
    (3)
    Subtotal


    Total                                    sO2.984                                                     $302.984

C. Other Information: The above investments representthe invested portion of the Inland Waterways Trust Fund.
This portion of the IWWTF is managed and accounted for by the Department of the Treasury.




W 97 Financial Statements, U.S. Amy Corps of Enginem-Opinion   (M 98-l 12)                              Annex AlPage 40
NOTE 5. Accounts Receivable. Net:


                                              (1)                   (2)       (3)        (4)
                                            GfOSS               Allowance  Allowance    Net
                                          Amount            For Estimated Method       Amount
                                           Due              Uncollectibles    Used      Due

A. Entity Receivables:
      Intragovernmental                     $280,160                                    $280,160
      Governmental                           614,238                                     614,238

B. Non-Entity Receivables:
      Intragovernmental
      Governmental                                   130                                       130


C. Other Information: A total of 5497,399k of governmental account receivables within our Southwest Division
has been declared “Long Term”. These receivables are associated with the “Water Shed” Program. WT A/R,
broken down by Districts, is as follows:

                    Fort Worth           $367,683
                    Little Rock             9,436
                    Tulsa                 120,280
                    Total                $497,399




N 97 Financial Stat&en&   U.S. Amy Corps of Engineers-Opinion   (M 9&l 12)                           Annex AlPage 41
NOTE 6. Other Federal flntrwovernmentall                              and Non-Federal (Governmental)   Assets:

A. Other Entity Assets:

(1) Federal (Intragovernmental)

          Total

(2) Non-Federal (Governmental)
   (a) Contributed Funds Held in Escrow                               ($920)
       Total                                                          ($920)




C. Other Non-entity Assets:


(1) Federal (Intragovernmental)

          Total

(2) Non-Federal          (Governmental)

          Total




FY 97 Financial Statements, U.S. Army Corps of Engineer+Opinion   (AA 9bl12)                            Annex A/Page 42
NOTE 8. Inventorv.               Net:



                                                      (1)                        (2)         (3)           (4)
                                                 Inventory              Allowance         Inventory,    Valuation
                                                  Amount                For Losses           Net         Method

A. Inventory Categories:
    (1) Held for Current Sale      $8,877                                          $259       $8,618
    (2) Held in Reserve for Future
        Sale
    (3) Excess, Obsolete and
        Unserviceable
    (4) Held for Repair               (10)                                                       (10)
        Total                 >    $8.867                                          $259       $8.608


B. Restrictions
           on Inventory Use, Sale or Disposition: None

C. Other Information: None




FY 97 Financial Sbtemcnb,   U.S. Army Corps of Engineerr-Opinion   (AA 9&l 12)                               Annex A/Page 43
NOTE 10. ODerating Materials and Sumlies                             (OM&SI. Net:


                                                  (1)                  (2)          (3)       (4)
                                               OM&S              Allowance        OM&S,    Valuation
                                               Amount            for Losses        &t       Method

A. OM&S Categories:
   (1) Held for Use                                $643                             $643       E
   (2) Held in Reserve for
       Future Use
   (3) Excess, Obsolete and
       Unserviceable
        Total               _                      $643                       ,     $643


B, Restrictions on operating materials and supplies: None

C. Other Information: The Revolving Fund maintains a warehouse activity to receive, store and issue common
inventory items required by multiple civil works activities and activities of the Revolving Fund. Issues are based
on average unit cost.




W 97 Financial Statements, U.S. Amy Corps of Engineers-Opinion   CM 9Clt2)                             Annex A/Page 44
NOTE 15. Pronertv. Plant and Eaubment, Net:

                                                     (1)           (2)              (3)             (4)             (9
                                                Depreci-                                                           Net
                                                 ation         Service          Acquisition    Accumulated        Book
                                                Method          Life              Value        Deureciation       Value

Classes of Fixed Assets

A. Land                                                                          $7,590,776                     $7,590,776
B. Structures, Facilities,
   & Leasehold Improvements                     IN                 >20           29,181,196      $578,131       23,603,065
C. Military Equipment                           SL                 l-5              883,641        328,275         555,366
D. ADP Sofbare                                  SL                 l-5                 1,852           318            1,534
E. Equipment
F. Assets Under Capital
    Lease
G. Other
H. Natural Resources                                                                     338                             338
 I. Construction-in-Progress                                                      5.512.387                       5.512.387
         Total                                                                  343.170.190     85.906.724    237.263.466



*Keys:
Depreciation Methods                                  Range of Service Life
SL - Straight Line                                    l-5      1 to5years
DD - Double-Declining Balance       6-10              6 to 10 years
SY - Sum of the Years’ Digits       1l-20             11 to 20 years
IN - Interest (sinking fund)                          >20      Over 20 years
PR - Production (activity or use method)
OT - Other (describe)




FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (AA 9E112)                                     Annex A/Page 45
                                                                                                            ANNEX A


NOTE 17. Other Liabilities:

A. Other Liabilities Covered by Budgetary Resources:

                                                                             Noncurrent        Current
                                                                               Liability       Liability    Total
1. Intragovermental
 (a) Cash on Deposit in Designated Depositary                                                        $213       $213
 (b) Cash in Custody of Government Cashiers                                                         2,188      2,188
 (c) Cash on Hand                                                                                     215        215
 (d) Advances from Other Federal Activities                                                        14,648     14,648
 (e) Budget Clearing Account Liabilities                                                           18.971     18.971
Total                                                                                      *     $36,235



                                                                             Noncurrent        Current
                                                                              Liability        Liability    Total
2. Governmental
 (a) Advances from the Public                                                                   $215.709    $215,709
 (b) Deposit Fund Liabilities                                                                     57.270      57.270
Total                                                                                           $272.979    $272.979


B. Other Information:             None


C. Other Liabilities Not Covered by Budgetary Resources:

                                                                             Noncurrent        Current
                                                                              Liability        Liability     Total
1. Intragovernmental



                                                                              Noncurrent       Current
                                                                               Liability       Liability     Total
2. Governmental



D. Other Information:            None




FY 97 financial Statements, U.S. Amy Corps of Engineers-Opinion   (AA 9fjt   121                             Annex AlPage 46
;NOTE 20. Net Position:

                                                                                           Appro-
                                              Revolving                   Trust            priated
                                                 Funds                    Funds            Funds              Total

A. Unexpended
   Appropriations:
     (1) Unobligated,
      a. Available                                                             $66,992      $692,840          $759,832
      b. Unavailable                                                                           76,146           76,146
     (2) Undelivered Orders                                                     82,127        272,799          354,926
B.   Invested Capital                              829,766                     952,6 11    35,679,879       37,462,256
C.   Cumulative Results
     of Operations                                 249,302                     181,148       (364,499)          65,95 1
D    Other                                          19,487                                           1          19,488
E.   Future Funding
     Requirements
F.   Total                                     $1.098.555           21.282.878            $36.357.166    s8.738.599




G. Other Information: None




fY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   CM 9bl12)                                   Annex A/Page 47
                                                                                                       ANNEX A



NOTE 22. Other Revenues and Financing Sources:




A. Other Revenues and Financing Sources:
   (1) Plant Increment                                                                             $3 1,039
   (2) Unavailable Receipts (General Funds)                                          $119,303      191,787
   (3) Mist Reimbursements/Gains                                                      416,995
   (4) Insurance Premiums                                                                            16,348
   (5) CSRWERS Retirement                                                              92,640
   (6) Health                                                                          87,327
   (7) Life Insurance                                                                     339
   (8) Trust Fund Revenue                                                               6,967        22.898
   Total                                                                         D   $723.571   $262.072


B. Other Information: General Fund receipts in the amount of $119,3031( are unavailable receipts returned to the
Treasury. The S180,306k, items (5). (6) and (7) represents the imputed expense for pensions and other retirement
benefits (ORB). The office of Personnel Management (OPM) is the administrative entity for pensions and other
retirement benefits. OPM accounts for and reports the pension liability in their financial statements while the
employer discloses the imputed expenses. OPM actuaries provide the normal cost rates which are used to calculate
the imputed expenses. Trust Fund revenues in the amount of S6,967k are accounted for by the Treasury. The
Treasury can provide any additional information needed.




Fy 97 Financial   Statements, U.S. Amy Corps of Engineers-Opinion   (AA 91112)                         Annex AlPage 40
                                                                                                        ANNEXA


NOTE 23. Program or ODerating ExDenses:




A. Operating Expenses by Object Classification:
      (1) Personal Services and Benefits                                         $1,592,811    $1,019,978
      (2) Travel and Transportation                                                  44,216        57,246
      (3) Rental, Communication and Utilities                                       136,83 1      103,808
      (4) Printing and Reproduction                                                  13,132        19,464
      (5) Contractual Services                                                    1,779,413     4,528,298
      (6) Supplies and Materials                                                    117,647       210,146
      (7) Equipment not Capitalized                                                  42,446
      (8) Grants, Subsidies and Contributions                                                       5,600
      (9) Insurance Claims and Indemnities                                            2,165         1,045
      (10) Other (describe):
            (a) Plant Replacement Increment                                         692,505
            (b) Intra - Revolving Fund Sales                                       (312,182)
            (c) Benefit Program
      (11) Total Expenses by Object Class                                  r     $4.108.984    $5.945.585




fY 97 financial Statements, U.S. Army Corps of Engineers-Opinion   (AA 9&l 12)                              Annex A/Page 49
NOTE 24. Cost of Goods Sold:

A. Cost of Services Sold
      (1) Beginning         Work-in-Process                                                      $0
     (2)    Plus: Operating Expenses                                                       329,294
     (3)    Minus: Ending Work-in-Process                                                        0
     (4)    Minus: Completed Work for Activity Retention                                         0
     Cost   of Services Sold                                                    $329.294




FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (AA 96112)                         Annex NPag   50
    NOTE 25. Other ExDenses:

                                                                                    1997         p&5
    A. Other Expenses:
       (1) Losses on Disposition of Assets                                             $21,183     $0
       (2) CSRUFERS Retirement                                                          92,640      0
       (3) Health                                                                       87,327      0
       (4) Life Insurance                                                                  339      0
       (5) Other Miscellaneous Losses                                                   17.300
       Total                                                           P              $218.789



    B. Other Information: The S180,306k, items (2), (3) and (4). represents the imputed expense for pensions and
    other retirement benefits (ORB). The Off@ of Personnel Management (OPM) is the administrative entity for
    pensions and other retirement benefits. OPM accounts for and reports the pension liability in their financial
.   statements while the employer discloses the imputed expenses. OPM actuaries provide the no&         cost rates which
    are used to calculate the imputed expenses.




    Fy 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (A4 96112)                          Annex AWage 51
                                                                               ANNEXA



 JVOTE 26. Extraordinarv Items:


 A. Extraordinary Items:
    (1) Casualty Losses
    Total




FY 97 Fiicial   Statements, U.S. Amy Corps of Engineers-Opinion   (AA 96112)   Annex NPae   52
JVOTE27. Prior Period Adiustments:



A. Prior Period Adjustments:
   (1) Plant Increment Income                                      ($852,458)
   (2) SWD Audit Adjustments                                         880,569
   (3) COEMIS Adjustments                                           (353,761)
      Total                                                    _




N   97 financial Statements, U.S. Army Corps of Engineer+Opinion   (AA 98-l 12)   Annex AWage 53
                                                                                                      ANNEX         A


BOTE 28. Non-ODeratinP                    Changes - (Transfers and Donations):

A. Increases:                                                                                      1996
   (1) Transfers-In:
         (a) Other (COEMIS)                                                        $4,545,014
         (b) Other Corps                                                            1,726,243
         (c) Other                                                                 (4,321,302)
         (d) Revolving Fund                                                           102,179
         (e) Other Government Agencies                                                490,68 1
   (2) Unexpended Appropriations                                                    2,16&l 19
   (3) Donations Received
   (4) Other Increases                                                             18.716.391
   (5) Total Increases                                                            $23.427.325



B. Decreases:
   (1) Transfers-Out:
         (a) Other (COEMIS)                                                         $4,403,025            $0
         (b) Other Gov’t Agencies (COEMIS)                                           4,291,158              0
         (c) Other Gov’t Agencies                                                     (494,93 8)            0
         (d) Other Corps                                                               419,347              0
         (e) Others                                                                  5,248,489              0
         (f) Capital Investments (COEMIS)                                           40,424,458              0
         (g) Capital Investments                                                   (29,060,165)             0
         (h) Plant Replacement                                                        (122,595)             0
         (i) PI ant Depreciation                                                        49,559              0
         (j) Interest on Gov’t Investments                                          (3,697,238)             0
         (k) Capital Investment Depreciation                                         2,473,792              0
         (I) Capital Investment Revolving Fund                                                              0
        (m) Capital Investment Trust Fund                                                                   0
         (n) Capital Investment Special Fund                                                                0
         (0) Abandoned Projects                                                        113,567              0
   (2) Donation’s                                                                      622,73 1             0
   (3) Other Decreases                                                                    (138)
   (4) Total Decreases                                                           $24.671.052

C. Net Non-Operating Changes (Transfers):                                          ($1.243.7271




FY 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (M   96112)                            Annex NPage 54
NOTE 29: htrafund Eliminations:

Schedule A: The following schedule shows the values of sales and services within the Civil Works activity by
transactions. It is presumed that an equal amount of accounts payable, expenses, advances and disbursements have
been entered on the accounting records of the purchasing COE District.

Selling Activity:                                     Column A                   Column B         Column C         Column

                                    Reimb              Accounts                                   Unearned
                                 Source Code          Receivable                 Rm               Revenue          Collections
Civil Works Funds                                        $24,084                  $291,855                           S274,53 1
Unearned Revenue
Total




  Customer Activity:                                  Column A                   Column B         Column C         Column D

                                                       Accounts
                                                       Pavable                   Exnenses         Advances       Disbursements
Civil Works Funds                                        $24,084                  $291,855                           $274,53 1
Advances
Total                                                     $24.084                 $291.855    <                  274.531




Schedule B: Not applicable

Schedule C: The value of sales or services between the Department of the Army and the COE are shown below. It
is presumed that an equal amount of accounts payable, expenses, advances and disbursements have been entered by
the Department of the-Army on their accounting records.

  Selling   Activity:                                 Column        A        Column     B         Column     C     Column        D

                                    Reimb              Accounts                                   Unearned
                                 Source Code          Receivable               Revenue            Revenue          Collections
Department      of the Army                                                   S I-679.2 1 I
Total                                                                      sl.a79.2U,                            LzkE




  Customer     Activity :                             Column        A        Column     I3        Column     C     Column        D

                                                       Accounts
                                                       Pavable                   ExDenses         Advances       Pisbursements
Department      of the Army                              (S8.16Q                                                      s950.290
Total                                                    (S8.168i                                                     s950.290




FY 97 Financial Statements, U.S. hny   Corps of Engineers-Opinion   (AA 98112)                                          Annex AlPage 55
                                                                                                       ANNEX A


medule D: The following schedule shows the value of sales and selvices between the COE and other U.S.
Government entities. It is presumed than an equal amount of accounts payable, expenses, advances and
disbursements have been entered on the accounting records of the purchasing entity.

 Selling Activity:                                  Column A               Column B    Column C     Column D

                        Reimb                        Accounts                          Unearned
                     Source Code                    Receivable             Revenue     Revenue      Collections
Other US GoWNon-Defense                                ($5.2101             s795.244                   S774.679
Total                                             Ir- (S5.210)          3795.244                  s774.679




 Customer Activity:                                 Column A               Column B    Column C     Column D

                                                     Accounts
                                                      Payable              ExDenses    Advances   Disbursements
Other US GovtINon-Defense                               @5.210)_            $795.244                  S774.679
Total                                                                       $795.244                  377s




N 97 Financial Statements, U.S. Army Corps of Engineers-Opinion   (AA 96112)                            Annex #Page 56
NOTE 31. Other Disclosures:

Previously recorded intangible assets in the amount of S585,918k were determined to be land and were reclassitied.
Accumulated amortization in the amount of $201,098k, recorded when the asset was classitied as intangible, was
reversed. A net decrease of $384,82Ok was recorded against the value of Other Assets to reflect the asset
reclassification and reversal of amortization. Consequently, the resulting balance of Other Assets was a negative
$2 16,048k.

We have reported abnormal account balances for Advances and Prepayments, Salaries and Wages and Severance
Pay and Separation Allowance. In addition, we have reported differences between Revenues from the Sales of
Goods or Services and the Cost of Goods Sold. We are currently operating under two automated systems and are
unable to explain these balances at this time. However, the accounts are being reviewed and corrective action will
be taken.




FY 97 Financial Statements, U.S. Amy Corps of Engineer+Opinion   (AA 9&l 12)                          Annex A/Page 57
        OTHERS RECEIVING COPIES OF THE REPORT

Assistant Secretq     of the Army (Civil Works)
Assistant Secretq of the Army (Financial Management and
   Comptroller)
Director of the Army Staff
The Inspector General
Chief of Public Affairs
Deputy Chief of Staff for Personnel
Deputy Chief of Staff for Logistics
Assistant Chief of Staff for Installation Management
Deputy Assistant Secretary of the Army for Budget
Director, Program Analysis and Evaluation
Commanders
   U.S. Army Criminal Investigation Command
   3d MP Group, USACIDC
   6th MP Group, USACIDC
Commandant, U.S. Army Logistics Management College
Director, Center for Army Lessons Learned




FY 97 Financial Statements, U.S. Army Corps of Enfjneedpinion   (M   96112)   Annex B/Page 59
                                                                                ANNBXC




Operation8            Center
     Patrick Fitzgerald, CPA, Program Director

Capital Field Office
     Krystal Nienaber
     Jo Spielvogel, CPA, Audit Manager

Fort Belvoir Field OfTice
     Rich Bachman, CPA
     Gordon Craig, CPA
     Shu-Fen Lee
     Errol Murdock

Fort Hood Field Of&e
     Jerry Fleming
     Wayne Horkheimer

Fort Knox Field Office
     Debra Knight
     Marcus Starbuck

Hanover         Field Of&e
     Joseph Ben& Auditor-In-Charge
     George Meray, CPA

St. Louis Administrative                        Center
     Winifred Curran
     Dana Dold

Wilkes Barre Field Office
     Brian Ross
     Mq Jo Rubino




FY 97 Financial Statements, U.S. Army Corps   of Engineerr-Opinion
                                                                 (AA   96112)   Annex C/Page 61
Appendix C. Audit Process

   Audit Work Performed. To fulfill our responsibilities under Public Law 101-576,
   the “Chief Financial Officers Act of 1990,” as amended by Public Law 103-356,
   the “Federal Financial Management Act of 1994, n we performed oversight of the
   independent audit conducted by the Army Audit Agency (AAA) of the FYs 1997
   and 1996 Financial Statements of the U.S. Army Corps of Engineers, Civil Works
   Program. Our purpose was to determine whether we could rely on the AAA audit.
   We reviewed the AAA audit approach and planning and monitored the progress of
   the audit at key points.

           Reviewing the MA Audit Approach. We used the “Federal Financial
   Statement Audit Manual,” January 1993, issued by the President’s Council on
   Integrity and Efficiency, and the “Financial Audit Manual,” December 12, 1997,
   issued by the General Accounting Office, as the criteria for reviewing the AAA
   audit approach. Specifically, we reviewed the engagement letter, documentation
   for the entrance conference? formulation of strategy, and audit plans and. programs.
   ~;~participated       in audit planning conferences and workshops coordmated by
            .

          Monitoring Audit Progress. Through the DOD Financial Statement Audit
   Executive Steering Committee and Integrated Audit Process Team, we provided a
   forum for a centrally managed exchange of guidance and information leading to a
   focused DOD-wide audit of the DOD Consolidated Financial Statements, including
   the supporting financial statements of major DOD Components. We participated in
   working groups on significant topics in financial reporting for the Corps of
   Engineers, Civil Works, and we reviewed and commented on the draft audit
   opinion report.

   In addition to the oversight procedures, we performed other procedures necessary
   to determine the fairness and accuracy of the AAA audit approach and conclusions.
   We reviewed findings and recommendations in previous AAA reports.

   Audit Period and Standards. We performed this financial statement audit from
   September 2, 1997, through February 27, 1998, in accordance with auditing
   standards issued by the Comptroller General of the United States, as implemented
   by the Inspector General, DOD. We did not use computer-processed data or
   statistical sampling procedures to conduct this audit.

   Contacts During the Audit. We visited or contacted individuals and
   organizations in the DOD audit community. Further details are available on
   request.




                                       7
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Commander, U.S. Army Corps of Engineers

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center
                                                      Appendix D. Report Distribution




Non-Defense Federal Organizations
Inspector General, Department of Education
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Forces
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
   House Committee on National Security
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, DOD.

F. Jay Lane
Salvatore D. Guli
Richard B. Bird
John J. Vietor
Craig W. Michaels
Craig W. Zimmerman
Susanne B. Allen
